Semiannual Report to the Congress
                                          October 1, 2005 through March 31, 2006




    U.S. GOVERNMENT PRINTING OFFICE I KEEPING AMERICA INFORMED

    O F F I C E O F T H E I N S P E C T O R G E N E RA L
The U.S. Government Printing Ofﬁce                            The Ofﬁce of the Inspector General

For well over a century, the mission of the U.S. Government   The Ofﬁce of the Inspector General (OIG) was created by
Printing Ofﬁce (GPO) under the Public Printing and            the Government Printing Ofﬁce Inspector General Act of
Documents statutes of Title 44, U.S. Code, has been to        1988, Title II of Public Law 100-504 (October 18, 1988).
fulﬁll the needs of the Federal Government for information    The mission of the GPO OIG is to provide leadership and
products and to distribute those products to the public.      coordination, and to recommend policies to prevent and
The GPO is the Federal Government’s primary centralized       detect fraud, waste, abuse and mismanagement, as well as
resource for gathering, cataloging, producing, providing,     to promote economy, efﬁciency, and effectiveness in GPO’s
authenticating, and preserving published U.S. Government      programs and operations. The OIG offers an independent
information in all its forms. GPO is responsible for the      and objective means of keeping the Public Printer and the
production and distribution of information products and       Congress fully informed about problems and deﬁciencies, as
services for all three branches of the Federal Government.    well as positive developments, relating to the administration
    Under the Federal Depository Library Program, GPO         and operations of the GPO. To meet these responsibilities,
distributes a broad spectrum of Government publications       the OIG conducts audits, evaluations, investigations,
in print and online formats to more than 1,250 public,        inspections, and other reviews. The OIG is dedicated to
academic, law, and other libraries across the country. In     acting as an agent of positive change to help the GPO
addition, GPO provides public access to ofﬁcial Federal       improve its efﬁciency and effectiveness as it undertakes its
Government information through public sales and other         unprecedented transformation.
programs, and, most prominently, by posting more than
a quarter of a million Government titles online through
GPO Access (www.gpoaccess.gov).
    Today, many documents no longer require typesetting,
printing, or binding and there is no tangible document
                                                              The OIG offers an independent
to make its way to library shelves or to be preserved for
the future. This evolution of document creation and
                                                              and objective means of keeping
dissemination has provided GPO with a signiﬁcant
challenge to its future relevance and viability. GPO is
                                                              the Public Printer and the
meeting this challenge by transforming into an entity
capable of delivering Federal information products
                                                              Congress fully informed about
and services from a ﬂexible digital platform. While the
introduction of digital technology may change the way
                                                              problems and deﬁciencies, as
GPO’s products and services will be created and how they
will look and function, GPO will continue to satisfy the
                                                              well as positive developments,
Government’s changing information requirements, and           relating to the administration
accomplish its mission of Keeping America Informed.
                                                              and operations of the GPO.
Contents
Message from the Inspector General .................................................................................................... 1

Highlights of this Semiannual Report .................................................................................................. 3

OIG Management Initiatives ................................................................................................................ 3

Review of Legislation and Regulations ................................................................................................ 5

GPO Management Challenges ............................................................................................................. 5

Ofﬁce of Audits and Inspections ...................................................................................................................................9
   A. Summary of Audit and Inspection Activity .................................................................................................................9
   B.     Audit Accomplishments – Audit and Inspection Reports .............................................................................................9
   C. Quality Assurance Activity ..........................................................................................................................................12
   D. Financial Statement Audit Activity .............................................................................................................................12
   E.     Update of OAI Policy Manual ....................................................................................................................................12
   F.     Status of Open Recommendations .............................................................................................................................12
          Statistical Table – Audit Reports with Questioned and Unsupported Costs ..............................................................15
          Statistical Table – Audit Reports with Recommendations that Funds be put to Better Use.......................................15
          Statistical Table – List of Audit Reports Issued During Reporting Period .................................................................15


Ofﬁce Of Investigations .................................................................................................................................................17
   A. Summary of Investigative Activity ..............................................................................................................................17
   B.     Types of Cases ............................................................................................................................................................17
   C. Status of Action on Referrals ......................................................................................................................................18
   D. Investigative Accomplishments ....................................................................................................................................18
   E.     Work-In-Progress .........................................................................................................................................................18
          Statistical Table – Summary of Investigative Case Workload .....................................................................................19
          Statistical Table – Ofﬁce of Investigations Productivity Summary .............................................................................19




Office of the Inspector General/Semiannual Report to Congress
Message from the Inspector General
                      This semiannual report summarizes the work of the United States Government Printing Ofﬁce (GPO)
                      Ofﬁce of Inspector General (OIG) from October 1, 2005 through March 31, 2006. The audits,
                      inspections, investigations, and other activities highlighted in this report demonstrate our continuing
                      commitment to the promotion of integrity, accountability, efﬁciency, and effectiveness in the programs
                      and operations of the GPO.

                      The past six months saw a signiﬁcant increase in the volume, complexity, and quality of our work as
                      we continued to focus our attention on those matters that have been identiﬁed as high priorities for
                      the GPO. As the Public Printer and his management team work to transform the Agency from a 19th
The past six          century printing facility to a 21st century information processing and disseminating operation, the GPO
                      has become signiﬁcantly more complex in terms of its business processes and information technology
months saw a          systems and infrastructures. As a result, the OIG has been forced to become more sophisticated in
signiﬁcant increase   both its capabilities and its focus. This evolution is apparent in the type of work completed during this
in the volume,        reporting period, including an assessment of GPO’s network vulnerabilities, a review of GPO’s Oracle
                      Program implementation, and other reviews of GPO’s information technology systems.
complexity, and
quality of our        In addition to taking on increasingly sophisticated challenges, the OIG continues to conduct audits and
work as we            inspections on programs and systems that, while not exceptionally complex, are nevertheless important
                      as potential sources of signiﬁcant fraud and must, therefore, be periodically monitored. For example,
continued to          during this period, we completed an audit of the Agency’s purchase card program resulting in a report
focus our attention   which contained several recommendations to improve management controls. We also completed an
on those matters      evaluation of GPO’s Continuity of Operations Plan, ﬁnding signiﬁcant shortcomings and offering
                      several recommendations for improvement.
that have been
identiﬁed as          This period also saw a high level of activity in the investigative arena including the referral of four matters
high priorities       to the U.S. Department of Justice, the issuance of several administrative subpoenas, and other signiﬁcant
                      progress in a number of important cases. The OIG continued to work closely with other law enforcement
for the GPO.          agencies and the U.S. Attorneys on a wide range of investigations of importance to the GPO.

                      In our last semiannual report, we included, for the ﬁrst time, a list of GPO Management Challenges.
                      We have identiﬁed these issues as the most important to the Agency’s future success and the realization
                      of the Public Printer’s Strategic Vision for the 21st Century. This report continues a discussion of these
                      challenges and evaluates the Agency’s ongoing efforts to meet them.

                      Finally, I want to express my gratitude to the entire OIG staff and especially those members of our
                      team who were recognized by the entire federal OIG community with awards for excellence at the
                      recent annual PCIE/ECIE awards ceremony. These talented and dedicated public servants work
                      diligently to accomplish the OIG’s critical mission and their work not only improves the GPO, but
                      beneﬁts all Americans.




                      Gregory A. Brower
                      INSPECTOR GENERAL
                      U.S. Government Printing Ofﬁce
                                                                                                                                   1
Highlights of this Semiannual Report                                 The Ofﬁce of Administration/Legal Counsel (OALC)
                                                                  managed all of the OIG’s budget and human resources
During this reporting period, the OIG continued to direct         needs including the hiring of a new Deputy Assistant
its resources to address those areas of greatest risk within      Inspector General for Audits and Inspections. The OALC
GPO. We provided a variety of services, including program         also provided legal advice and counsel on issues arising
and ﬁnancial audits, inspections and assessments of key           during the course of audits, inspections, and investigations,
operations, and investigative activity resulting in criminal      including opinions regarding legal accuracy and sufﬁciency
and administrative actions. We also continued to provide          of OIG reports. Additionally, the OALC reviewed 12
general and professional assistance and reviews of proposed       administrative subpoenas issued during this reporting
legislation and regulations. The work of each of the OIG’s        period, and provided the U.S. Department of Justice with
components is brieﬂy summarized below.                            draft pleadings in response to challenges to two subpoenas
                                                                  issued under the Right to Financial Privacy Act. The
   The Ofﬁce of Audits and Inspections (OAI) issued four          OALC also served as the OIG’s liaison to the GPO General
reports with a total of 44 recommendations for further            Counsel and to the Ofﬁce of the Chief of Staff on a variety
improvements and efﬁciencies in GPO activities and                of matters.
operations. The OAI also continued to work jointly with
GPO management to close open recommendations
from previous reporting periods. In addition, the OAI             OIG Management Initiatives
collaborated with GPO management to competitively
award a new contract to an independent public accounting          OIG Reorganization
ﬁrm to perform the GPO’s annual ﬁnancial statement audit.         As a result of a successful strategic planning process in FY
                                                                  05, the OIG realigned its operations at the beginning of
   The Ofﬁce of Investigations (OI) opened 25 new investigative   this reporting period. The Ofﬁce of Inspections, previously
cases in response to 220 new complaints or allegations,           combined with the Ofﬁce of Administration, has been
and closed 17 matters. The OI also began developing               merged with the Ofﬁce of Audits to form the new Ofﬁce of
a proactive investigative plan to analyze, identify, and          Audits and Inspections. The new Ofﬁce of Administration/
investigate allegations of fraud in the GPO’s printing            Legal Counsel (OALC) will continue to handle all OIG
procurement program. Through its investigative efforts            administrative matters, including human capital, budget,
during this period, the OI recovered a total of $4,644            purchasing, information technology, and general ofﬁce
and helped GPO realize cost savings of approximately              policy and planning, as well as all OIG legal issues. The
$500,000 through the successful investigation of workers’         OALC will be led by the Assistant Inspector General for
compensation fraud.                                               Administration who also serves as Counsel to the Inspector
                                                                  General.

                                                                  Personnel Update
                                                                  The OIG team added a new member, G. Brent Melson,
                                                                  in December. Mr. Melson serves as the Deputy Assistant
                                                                  Inspector General for Audits and Inspections and will assist




Office of the Inspector General/Semiannual Report to Congress                                                                3
the Assistant Inspector General for Audits and Inspections       system. Sonja Scott, Special Agent, received an Award for
with the planning and execution of all audits and reviews        Excellence for her work investigating workers’ compensation
and will play a key role in both strategic planning as well as   fraud. David Kennedy and Walter Martin, Special Agents,
the daily management and operation of all of the OIG’s           each received an Award for Excellence for identifying
audit and inspection activities. He brings more than 20          several million dollars in potentially fraudulent claims by a
years of audit experience to GPO, including 15 years as a        GPO contractor. Kevin Kaporch, former Deputy Assistant
senior manager with the NASA OIG.                                Inspector General for Administration and Inspections,
                                                                 received an Award for Excellence for identifying serious
Executive Council on Integrity and Efﬁciency                     product integrity concerns associated with the procurement
The President’s Council on Integrity and Efﬁciency (PCIE)        of security design services for the new biometric passport.
and the Executive Council on Integrity and Efﬁciency             Finally, J. Anthony Ogden, then Assistant Inspector General
(ECIE) were established by Executive Order 12805,                for Administration and Inspections, Kevin Kaporch, then
May 11, 1992, to coordinate and enhance governmental             Deputy AIG for Administration and Inspections, and Korey
efforts to promote integrity and efﬁciency and to detect         Morris, Management and Program Analyst, each received
and prevent fraud, waste, and abuse in Federal programs.         an Award for Excellence for their contributions to reports
The PCIE is primarily comprised of Inspectors General            related to the security and product integrity of United States
(IGs) appointed by the President and the ECIE is primarily       passports produced by the Government Printing Ofﬁce.
comprised of IGs appointed by agency directors. The GPO
OIG is a member of the ECIE.
   In October, the PCIE/ECIE held its 8th          PCIE/ECIE Award for                   Excellence
annual awards ceremony. This ceremony
recognizes outstanding individual and team
accomplishments from within the federal
OIG community during the preceding
12 months. At the most recent ceremony,
several GPO OIG professionals were
recognized. David Schaub, Supervisory
Auditor, and Allyson Brown, Auditor,
each received an Award for Excellence
for their work in identifying recoveries
                                                   ECIE Vice Chairman Barry Snyder             Former OIG Deputy Assistant IG for
of nearly $3.3 million inappropriately
                                                   presents a PCIE/ECIE Award for              Inspections Kevin Kaporch and Program
charged back by customer agencies using an         Excellence to OIG Special Agent             Analyst Korey Morris recieve a PCIE/
intra-government payment and collection            Sonja Scott.                                ECIE Award for Excellence from ECIE
                                                                                               Vice Chairman Barry Snyder.




4                                                                            Office of the Inspector General/Semiannual Report to Congress
Review of Legislation and Regulations                            plan of its own, it will be very difﬁcult, if not impossible, for
                                                                 senior management to determine whether or not the various
The OIG, in fulﬁlling its obligations under the Inspector        business units are working together toward a common
General Act of 1978, is responsible for reviewing existing       strategic goal.
and proposed legislation and regulations relating to
programs and operations of the GPO and to make                   2. Management of Human Capital. As GPO seeks
recommendations in its semiannual reports concerning the         to “rightsize” the overall Agency workforce while also
impact of such legislation or regulations on the economy         attempting to attract new employees who possess the right
and efﬁciency of programs and operations administered or         skill-sets for the new GPO, the Agency’s human capital
ﬁnanced by GPO. We will continue to play an active role in       operation will face unprecedented challenges. Led by the
this area in an effort to assist the Agency achieve its goals.   Chief Human Capital Ofﬁcer, the Agency must develop and
   During this reporting period, there were no legislative       implement a comprehensive plan to effectively deal with
proposals relating to GPO programs and operations.               the myriad issues that will likely arise as the GPO workforce
                                                                 evolves. One of these issues is telework. In the wake of a
                                                                 Congressional mandate to promote telework by federal
GPO Management Challenges                                        employees, the General Services Administration (GSA)
                                                                 recently promulgated guidelines designed to guide agencies
As the GPO transforms, Agency management continues               as they implement their respective programs. Although
to confront a variety of substantial and difﬁcult issues that    these guidelines are technically not applicable to Legislative
will have an impact on a successful transformation. In           Branch agencies, GPO management has indicated that
our last semi-annual report, the OIG identiﬁed what we           telework should be utilized to the extent possible and the
believe to be GPO’s top ten management challenges. While         Agency has begun to develop such a program. It is critical
management has made progress in meeting a number of              that GPO successfully implement a telework program as it
of these challenges, much work remains to be done. In this       competes with other government agencies and the private
report, we offer an updated list of these challenges and         sector for desired talent, and attempts to address critical
opine as to management’s progress to date. As we observed        continuity of operations issues.
previously, these are the issues which are most likely to
hamper GPO’s transformation efforts if not addressed with        3. Improved Financial Management. GPO has
elevated levels of attention and resources.                      begun migrating current business, operational, and
                                                                 ﬁnancial systems, including associated work processes, to
1. Strategic Planning. In order to realize and sustain           an integrated system of Oracle enterprise software and
GPO’s Vision, each individual business unit within the           applications. The new system will provide GPO with
Agency must develop and implement its own clear and              integrated and ﬂexible tools to successfully support business
succinct strategic plan that is fully aligned with GPO’s         growth and customer technology requirements for products
Strategic Vision for the 21st Century. Business unit plans       and services. The GPO Oracle Program was created to
that cascade goals and objectives down from the Agency’s         oversee and support this complex effort. Investment in the
plan will help achieve employee buy-in and ensure that           integrated system presents both great opportunities for
that GPO’s transformation efforts stay on track. Until each
business unit within GPO has articulated a clear strategic




Office of the Inspector General/Semiannual Report to Congress                                                                   5
enhanced efﬁciency and cost savings, and signiﬁcant risk in       6. Security and Intelligent Documents (SID). SID
the event the system does not meet user requirements. GPO         is considered by management to be the most important
must ensure that the implementation is accomplished on            business unit for the future of GPO. SID must continue its
time, within budget, and with a satisfactory result.              customer outreach and business development to realize the
                                                                  full potential of this signiﬁcant revenue source. Additionally,
4. Continuity of Operations (COOP). A recent OIG                  issues related to the production and transportation of blank
review of GPO’s COOP planning revealed that the Agency            passports continue to be a concern to the OIG and must
may not be adequately prepared to effectively deal with a         be a priority for GPO management. These issues include
signiﬁcant event such as a natural or man-made disaster. Our      ﬁnalizing a Memorandum of Understanding with the U.S.
report included several recommendations including, most           Department of State, overall product security, privacy
fundamentally, that GPO adopt the planning requirements           and security concerns related to the electronic passport,
and critical elements identiﬁed in Federal Preparedness           inventory volume and storage of blank passport books, and
Circular (FPC) 65. GPO management must address this               planning for a secondary passport production facility. Each
problem if it is to be able to continue its essential functions   of these issues must be addressed if GPO is to maintain its
and resume normal operations within a timeframe that is           role as the source for U.S. passport production.
acceptable to its customers and business partners.
                                                                  7. New Facility. GPO management believes that the
5. Internal Controls. GPO management is responsible               current GPO facility is too large and antiquated, and
for establishing and maintaining a system of internal             requires an extraordinary amount of ﬁnancial resources
controls to achieve the objectives of effective and efﬁcient      for operation and maintenance. The Agency envisions
operations, reliable ﬁnancial reporting, and compliance with      relocating to new facilities speciﬁcally sized and equipped
applicable laws and regulations. An OIG audit of GPO              for future requirements and to more effectively meet the
Purchase Card Program Management Controls during                  needs of its customers. While the challenges attendant to
this reporting period found that management controls over         such a move will be signiﬁcant for the Agency, and must be
access to and use of purchase cards need strengthening to         successfully addressed, any relocation of GPO’s operations
ensure that purchase cards are used in an efﬁcient and cost-      must ﬁrst be approved by Congress. The Agency must
effective manner and in compliance with applicable federal        continue with its efforts to work closely with Congress
policies and procedures. The OIG made recommendations             toward approval of this important initiative.
to improve management controls over the Purchase Card
Program and also to ensure that purchase cards are used in        8. Information Technology & Systems (IT&S)
compliance with applicable laws, regulations, policies and        Management. As GPO transforms from an ink-on-
procedures. GPO management has recognized the need                paper operation to a highly secure multi-media digital
to improve the current internal control environment if the        dissemination environment, the management of the
Agency is to successfully implement its strategic vision and      Agency’s information technology resources becomes more
has planned future initiatives in this area.                      critical to the success of the GPO vision and mission. The
                                                                  acquisition, implementation, and sustaining engineering
                                                                  issues associated with IT&S, including security issues,
                                                                  provide GPO with new and emerging management
                                                                  challenges. Noteworthy challenges include GPO’s Public
                                                                  Key Infrastructure (PKI), network security, and compliance
                                                                  with the Federal Information Security Management Act




6                                                                             Office of the Inspector General/Semiannual Report to Congress
(FISMA). GPO has established a PKI designed to serve
the needs of the Agency, its Legislative Branch partners,
and other Federal partners of GPO, as the Agency fulﬁlls
its mission in the vital arena of electronic information
dissemination and e-government. GPO’s PKI is cross-
certiﬁed with the Federal Bridge Certiﬁcate Authority —
a substantial and necessary step toward utilizing its PKI for
the beneﬁt of a variety of customers. The PKI will be an
important contributor to future GPO revenue-generating
activities. Because GPO is a provider of services to
Executive Branch agencies who must comply with FISMA,
GPO has chosen to substantially comply with the principles
                                                                GPO’s Top 10
of FISMA. The OIG sees this as crucial to ensuring GPO’s        Management Challenges
ability to provide information management services to
customers in the future.                                        1.    Strategic Planning
                                                                2.    Management of Human Capital
9. Customer Service. As GPO transforms, its customer            3.    Improved Financial Management
services must reﬂect and advance that transformation, and       4.    Continuity of Operations (COOP)
must have the appropriate focus, stafﬁng and alignment with     5.    Internal Controls
GPO’s Strategic Vision to be assured of future success. The
                                                                6.    Security and Intelligent Documents (SID)
culture and focus of GPO’s customer service efforts must
reﬂect a new way of thinking. Speciﬁcally, GPO customers        7.    New Facility
should come to GPO because they want to — not because           8.    Information Technology & Systems (IT&S) Management
they are required to do so by statute. This transformation      9.    Customer Service
of the traditional GPO customer relationship requires           10.   Acquisition of a Digital Content Management System
a continuing evolution toward state-of-the-art customer
relations management.

10. Acquisition of a Digital Content Management
System. GPO is currently in the implementation planning
phase of its Future Digital System (FDsys), envisioned as a
world-class system that will preserve and provide permanent
public access to information published by all branches
of the Federal Government. Current plans call for the
development of a nearly $29 million system through a series
of procurements. To date, this project appears to be off to
a very successful start and could serve as a role model for
future GPO procurements.




Office of the Inspector General/Semiannual Report to Congress                                               7
Ofﬁce of Audits and Inspections



The Ofﬁce of Audits and Inspections (OAI), as required by       B. Audit Accomplishments –
the Inspector General Act of 1978, as amended, conducts            Audit and Inspection Reports
independent and objective performance and ﬁnancial
audits relating to GPO’s operations and programs, and           1. Audit Report 06-01
oversees the annual ﬁnancial statement audit performed            (Issued January 9, 2006)
by an independent public accounting ﬁrm under contract.
In addition, the OAI conducts short-term inspections            Report on the Audit of GPO Purchase Card Program
and assessments of GPO activities that generally focus on       Management Controls
issues which are limited in scope and time sensitive. All
OIG audits are performed in accordance with Generally           The General Services Administration (GSA), through
Accepted Government Auditing Standards (GAGAS)                  a contract with the Bank of America (BoA), provides
promulgated by the Comptroller General of the United            GPO with commercial charge cards (purchase cards) for
States. When requested, the OAI provides accounting and         employees to make purchases for ofﬁcial government use.
auditing assistance to the OIG Ofﬁce of Investigations (OI)     GPO employees use the purchase cards for various purposes
for both civil and criminal investigations. Furthermore,        including purchasing supplies and services, emergency
the OAI refers irregularities and other suspicious conduct      requirements, or to support production and ﬁeld activities.
detected during audits, inspections, or assessments to the OI   Use of the purchase card beneﬁts the Government through
for investigative consideration.                                administrative cost savings, refunds paid to agencies
                                                                based upon the dollar value of transactions, availability
                                                                of electronic access to transaction data by agencies, and
A. Summary of Audit and                                         worldwide acceptance. The OIG performed an audit to
   Inspection Activity                                          evaluate the effectiveness of GPO’s purchase card program.
                                                                The speciﬁc audit objectives were to determine whether:
During this reporting period, the OAI continued to              (1) GPO has implemented appropriate management
work cooperatively with GPO management to close                 controls over the use of purchase cards; and (2) purchase
several open recommendations carrying over from prior           cards are being utilized in compliance with applicable laws,
reporting periods. As of the date of this report, 11 such       regulations, policies, and procedures.
recommendations remain open. The OAI also issued four
new reports during this reporting period. These reports         Results In Brief
made a total of 44 recommendations for improving GPO’s          The audit found that management controls over access to
operations, including strengthening of internal controls        and use of purchase cards need strengthening to ensure that
throughout the Agency.                                          purchase cards are used in an efﬁcient and cost-effective
                                                                manner and in compliance with applicable federal policies
                                                                and procedures. The audit identiﬁed that: (1) the GPO
                                                                ofﬁce responsible for issuing cards and establishing and
                                                                maintaining accounts did not have sufﬁcient or accurate
                                                                records and reports to appropriately monitor Agency
                                                                purchase card activities; (2) the proper separation of




Office of the Inspector General/Semiannual Report to Congress                                                             9
duties between purchase card cardholders and Approving         GPO management concurred with each of the report’s
Ofﬁcials (AOs) did not always exist; (3) controls to prevent   recommendations and has initiated responsive corrective
unauthorized personnel from using purchase cards need          actions.
strengthening; and (4) purchase card cardholders and AOs
have not been adequately trained.                              3. Assessment Report 06-03
   The OIG made several recommendations to improve                (Issued March 31, 2006)
management controls over the Purchase Card Program
and to ensure that purchase cards are used in compliance       GPO Oracle Program Stakeholder Analysis
with applicable laws, regulations, policies, and procedures.
GPO management concurred with each of the report’s             In order to reduce IT costs, provide better audit compliance,
recommendations and agreed to take actions to strengthen       address new functional requirements, and improve overall
management controls to ensure that the GPO Purchase            operating efﬁciency, GPO is migrating current business,
Card Program is carried out in not only an efﬁcient and        operational, and ﬁnancial systems, including associated
cost-effective manner, but also in compliance with all         work processes, to an integrated system of Oracle enterprise
applicable laws, regulations, policies, and procedures.        software and applications. The purpose of this migration
                                                               to Oracle is to provide GPO with integrated and ﬂexible
2. Assessment Report 06-02                                     tools to successfully support business growth and customer
   (Issued March 28, 2006)                                     technology requirements for products and services. GPO
                                                               currently hosts its key ﬁnancial, administrative, human
GPO Network Vulnerability Assessment                           resources, and program support applications in a legacy
                                                               mainframe environment, which the Agency has been
The GPO OIG contracted with a consulting ﬁrm that              operating for over 20 years without major changes to
provides network security services to public and private       architecture or technology. GPO’s Oracle Program faces
sector enterprises to conduct an assessment of GPO’s           many challenges, including an uncertain funding stream,
enterprise network security infrastructure. The assessment     an incomplete program management team, lack of enough
was conducted to evaluate the level of network security        qualiﬁed functional and technical personnel, and insufﬁcient
controls in place to help protect GPO’s IT&S resources         processes and tools to manage and measure the status of
from unauthorized access and compromise. The OIG               each project associated with the program.
tasked the consultant to perform an external and internal         Because of the importance of this program to the
vulnerability assessment of GPO’s enterprise network. The      Agency’s future, the OIG contracted with a consultant to
external work examined the fortiﬁed boundary (perimeter)       perform a stakeholder analysis of the Oracle Program.
of GPO’s network. The internal assessment examined             The objective of the analysis was to identify management
GPO’s network infrastructure and network-attached              vulnerabilities that, if not corrected, could result in failure
resources, including hosts, servers, and workstations. The     of the program to meet the expectations of stakeholders. As
internal assessment also included an examination of wireless   part of the analysis, the consultant examined stakeholder
communication activity. The assessment found room for          issues, concerns, and expectations, as well as program
improvement and made recommendations to further                integration, implementation, and execution.
strengthen existing security controls on GPO’s network.           The analysis identiﬁed several vulnerabilities and
                                                               made recommendations to mitigate the risks associated
                                                               with those vulnerabilities. The vulnerabilities identiﬁed
                                                               included: (1) inadequate functional and technical stafﬁng;




10                                                                         Office of the Inspector General/Semiannual Report to Congress
(2) top management support not aligned with program                 The OIG made recommendations to improve GPO’s
execution; (3) lack of target performance metrics; (4) lack of   plans and procedures to reasonably ensure a viable COOP
methodology for organizational restructuring; and (5) lack       capability in the event of a disaster or other signiﬁcant
of an effective method to manage program progress. To            event. GPO management concurred with each of the
help ensure that the program meets the expectations of its       report’s recommendations. The actions planned by
stakeholders, the OIG made a total of 13 recommendations.        management generally provide the initial framework to
GPO management concurred with each of the report’s               establish and maintain a viable COOP plan in the event of
recommendations and has planned responsive corrective            a major disaster or emergency.
actions. Because of the nature of the challenges facing
GPO’s Oracle Program, we acknowledged that disposition           5. Joint Inspection/Investigation
and closure of the recommendations made in the report               (Issued March 20, 2006)
will take time and most likely not meet the normal GPO
standard of 120 days. The OIG agreed to periodically meet        Anonymous allegations concerning the
with the Executive Sponsor to track GPO’s progress in            Ofﬁce of Superintendent of Documents
implementing the recommendations.
                                                                 In response to a request from the Public Printer and
4. Inspection Report 06-04                                       Members of the Congressional Joint Committee
   (Issued March 31, 2006)                                       on Printing, the OIG completed a joint inspection/
                                                                 investigation of allegations made in an anonymous letter
Inspection of GPO’s Continuity of Operations Plan                concerning activities of the Ofﬁce of the Superintendent of
                                                                 Documents.
In response to a recommendation from the Inspections                The letter contained numerous allegations of wrongdoing
and Evaluations Roundtable of the President’s Council            or arguably bad decision-making by GPO management.
on Integrity and Efﬁciency (PCIE) and Executive Council          The OIG review focused only on those allegations which
on Integrity and Efﬁciency (ECIE), the OIG performed             not only fall within the jurisdiction of the OIG, but which,
an inspection of GPO’s plans for continuing operations           if true, would constitute a violation of a law, regulation, or
of its essential functions in the event of a major disaster      GPO instruction, or would otherwise constitute substantial
or emergency. The roundtable recommended that OIGs               fraud, waste, or abuse. Applying these criteria, the OIG
review their respective agency’s continuity of operations        examined ﬁve issues raised in the letter: (1) allegations
(COOP) plans.                                                    concerning the Superintendent of Documents’ improper
   The objective of the inspection was to evaluate GPO’s         government credit card use and improper dealings with
existing processes, procedures, and authorities against          a contractor; (2) allegations of improper preferential
Federal Government best practices for maintaining                treatment of a book dealer/distributor; (3) allegations of
essential functions in the event of a natural disaster or        improper pre-billing of customers by inserting “dummy”
other signiﬁcant event. Speciﬁcally, we evaluated GPO’s          quantities into stock balances; (4) allegations of improper
COOP plan against the Federal Emergency Management               destruction of government property; and (5) allegations of
Agency’s (FEMA) Federal Preparedness Circular (FPC) 65,          improper disposal of publications. Our review of these
“Federal Executive Branch Continuity of Operations.” FPC         issues included interviews with knowledgeable GPO
65 serves as the model for best practices within the Federal     employees as well as an examination of relevant documents.
Government.




Office of the Inspector General/Semiannual Report to Congress                                                               11
   Our review of the various issues raised in the subject       E. Update of OAI Policy Manual
letter revealed no credible evidence to support any of the
allegations of fraud, waste, abuse, or other wrongdoing on      The Assistant Inspector General for Audits and Inspections
the part of GPO and its employees.                              continued to lead an effort to thoroughly review, revise and
                                                                update the OAI’s policies and procedures. The result of this
                                                                effort, to date, is a working draft of a streamlined, up-to-date
C. Quality Assurance Activity                                   policy and procedures manual that promises to enhance
                                                                the quality and consistency of the OAI’s work product.
The OAI maintains an internal quality assurance review          We anticipate ﬁnalizing the manual and implementing its
program which assists the organization with ensuring            contents during the third quarter of FY 2006.
compliance with generally accepted government auditing
standards. One of the primary components of the program
is performing periodic Quality Assurance Reviews (QARs)         F. Status of Open Recommendations
of audits that were previously completed and issued as ﬁnal
reports of the OIG. During this reporting period, the OAI       GPO management ofﬁcials continued to make signiﬁcant
completed a QAR of a previously completed audit.                progress during this reporting period in implementing and
                                                                closing many of the recommendations contained in reports
                                                                issued during previous semiannual reporting periods.
D. Financial Statement Audit Activity                           Speciﬁcally, GPO management worked in cooperation
                                                                with the OIG to close nine open recommendations. For the
Section 309 of Title 44 United States Code, requires that       11 previous period recommendations that remain open, a
GPO obtain an independent annual audit of its ﬁnancial          summary of the ﬁnding and recommendations, along with
statements which is overseen by the OIG. KPMG LLP               the status of GPO management’s actions to implement
(KPMG) has been retained to conduct this audit under a          the recommendation and OIG comments appears below.
multi-year contract for which the OAI provides oversight        In addition, several recommendations from GPO’s
as the Contracting Ofﬁcer’s Technical Representative            independent public accountant’s annual ﬁnancial statement
(COTR). The oversight provided ensures that the audit           remain open.
complies with Government auditing standards. The OAI
also assists with facilitating the external auditor’s work as   1. Audit Report 05-04
well as reviewing the work performed. In addition, the OAI         (Issued September 30, 2005)
provided administrative support and coordination with
GPO management for the KPMG auditors. (GPO again                Report on the Audit of GPO’s Travel Program
received an unqualiﬁed opinion on its ﬁnancial statements
for FY 2005).                                                   Finding
   The audit for Fiscal Year (FY) 2005 was the last audit       OIG auditors found that GPO employees were not always
covered under the current contract with KPMG. During            making proper use of Government-issued travel cards.
this reporting period, the OAI coordinated with the GPO         Speciﬁcally, during the ﬁrst six months of FY 2005, seven
Chief Financial Ofﬁcer (CFO) to review proposals from           GPO employees used travel cards for making purchases
contractors for the follow-on procurement of audit services     not related to expenses for ofﬁcial travel. Six of the seven
for an audit of GPO’s ﬁnancial statements for the FY            employees were also delinquent in paying the balance on their
ending September 30, 2006, and subsequent years. After          cards. In addition, we found that controls over management
a competitive bidding process, the follow-on contract was
awarded to KPMG.

12                                                                          Office of the Inspector General/Semiannual Report to Congress
of travel advances needed improvement. Speciﬁc problems         alone personal computer (PC) system and the Procurement
found include: (1) employees with Government-issued travel      Information Control System (PICS) databases. Printing
cards were obtaining travel advances; (2) advances were         Specialists were entering data twice because the two systems
sometimes approved a signiﬁcant time before travel was to       were not interfaced, which is contrary to Standard 1 of
occur; and (3) advances were not being repaid on a timely       GPO Instruction 825.18A, “Internal Control Program.”
basis.
                                                                Recommendation
Recommendation                                                  The Managing Director of Customer Services should
We recommended that the CFO should coordinate with              implement an automatic interface between the PC database
appropriate GPO ofﬁcials to compile a monthly report            and PICS for entering future contract modiﬁcations data
of all GPO employees on ofﬁcial travel and compare the          (03-04-02).
employees on ofﬁcial travel with the charges identiﬁed on
the monthly management report of travel card usage to           Management Comments
determine whether travel cards are being appropriately          On February 28, 2006, the Managing Director of Customer
utilized (05-04-02). We also recommended that the CFO           Services stated that the Customer Services Ofﬁce of
should coordinate with the Managing Director, Customer          Development and Program Support has been monitoring
Services, to expedite processing of travel vouchers with        the Information Technology and Systems’ progress and
travel advances on press sheet inspections to allow for         reports that the projected date of completion has again
timelier billing of customer agencies for reimbursement         slipped. The revised schedule now calls for completion of
(05-04-08).                                                     Phase I by the end of August 2006 with Phase II scheduled
                                                                for completion by December 2006.
Management Comments
During this reporting period, GPO management closed             OIG Comments
six of the eight remaining open recommendations from            This recommendation will remain open until the Managing
this report. With respect to the remaining two open             Director of Customer Services completes and implements
recommendations, GPO management is working to develop           the system enhancements described above.
a notiﬁcation system to identify employees in travel status.
                                                                3. Inspection Report AI0502
OIG Comments                                                       (Issued March 31, 2005)
Implementation of the travel notiﬁcation system should
sufﬁce in allowing management to close the two open             Blank Passport Product Integrity and Security Review
recommendations in this report.
                                                                Finding
2. Audit Report 03-04                                           The inspection revealed a number of weaknesses in the
   (Issued September 30, 2003)                                  blank passport production business processes, including
                                                                missing critical core competencies, deﬁcient processes,
Report on Improving Controls Over Printing Procurement          and infrastructure issues that require GPO management
Department’s Contract Modiﬁcations at Central Ofﬁce             attention. In addition, the OIG found signiﬁcant
                                                                deﬁciencies regarding blank passport manufacturing,
Finding                                                         component product security, and related internal controls
Printing Specialists in the Printing Procurement                that require GPO management review and reengineering.
Department (PPD) were entering contract modiﬁcation
data twice into PPD’s two automated databases – a stand-

Office of the Inspector General/Semiannual Report to Congress                                                            13
Recommendation                                                Recommendation
The OIG made several recommendations to GPO                   KPMG made several recommendations to GPO
to improve the various weaknesses identiﬁed in blank          management, which if implemented, will help further
passport production business processes that are relevant      improve the Agency’s IT security program.
to all documents and operations within GPO’s Security
and Intelligent Documents (SID) operation. GPO’s              Management Action
implementation of the recommendations should lead to          The Chief Information Ofﬁcer (CIO) continues to take
improved security and integrity for the entire SID business   action on all of the recommendations and has made
line.                                                         progress in resolving all of the issues.

Management Comments                                           OIG Comments
GPO management generally concurred with the report’s          The OIG continues to monitor GPO’s progress in
recommendations and has addressed some of the                 implementing these recommendations through monthly
weaknesses identiﬁed.                                         reports received from the CIO.

OIG Comments
The OIG continues to work with GPO management to
monitor implementation of the remaining eight open
recommendations.                                                Deﬁnitions
                                                                Questioned Costs – Costs that are unnecessary,
4. Financial Statement Audit –                                  unreasonable, unsupported, or an alleged violation of
   KPMG Recommendations                                         law, rule, regulation, contract, etc.
                                                                Unsupported Costs – Questioned costs that are
Finding                                                         not supported by adequate documentation.
KPMG issued several IT security-related ﬁndings in the
course of their 2005 Financial Statement Audit. The             Funds Put to Better Use – Funds that could be
ﬁndings addressed certain weaknesses in GPO’s security          used more efﬁciently by implementing recommended
program planning and management, access controls,               actions.
application software development and change control,            Disallowed Costs – Costs that management agrees
controls over system software, and service continuity.          should not be charged to GPO.




14                                                                       Office of the Inspector General/Semiannual Report to Congress
 Statistical Table –
 Audit Reports with Questioned and Unsupported Costs
Description                                                     Questioned Costs     Unsupported Costs        Total Costs

Reports for which no management decision has been made                $0                    $0                    $0
by the commencement of the reporting period
Reports issued during the reporting period                             0                    0                     0
Subtotals                                                             $0                    $0                    $0
Reports for which a management decision was made during
the reporting period
1. Dollar value of disallowed costs                                   $0                    $0                    $0
2. Dollar value of allowed costs                                      $0                    $0                    $0
Reports for which no management decision has been made by             $0                    $0                    $0
the end of the reporting period
Reports for which no management decision has been made                $0                    $0                    $0
within six months of issuance


 Statistical Table –
 Audit Reports with Recommendations That Funds Be Put to Better Use
Description                                                          Number of Reports      Funds Put to Better Use

Reports for which no management decision has been made by the                    0                       $0
commencement of the reporting period
Reports issued during the reporting period                                       0                       $0
Subtotals                                                                        0                       $0
Reports for which a management decision was made during the
reporting period

• Dollar value of recommendations that were                                      0                       $0
  agreed to by management
• Dollar value of recommendations that were                                      0                       $0
  not agreed to by management
Reports for which no management decision has been made by                        0                       $0
the end of the reporting period
Report for which no management decision has been made within                     0                       $0
six months of issuance


 Statistical Table –
 List of Audit Reports Issued During Reporting Period
Other Audit Reports                                                                         Funds Put to Better Use
Report on the Audit of GPO Purchase Card Program Management Controls                                     $0
(Audit Report Number 06-01, issued 01/09/06)
Report on GPO Network Vulnerability Assessment (Assessment Report Number                                 $0
06-02, issued 03/28/06)
Report on GPO Oracle Program Stakeholder Analysis (Assessment Report                                     $0
Number 06-03, issued 03/31/06)
Report on Inspection of GPO’s Continuity of Operations Plan (Inspection Report                           $0
Number 06-04, issued 03/31/06)
Total                                                                                                    $0


Office of the Inspector General/Semiannual Report to Congress                                                               15
Ofﬁce of Investigations



The Ofﬁce of Investigations (OI) conducts and coordinates         B. Types of Cases
investigations relating to employee misconduct and
monetary or material losses occurring in GPO programs             The OI’s investigative workload can be divided into the
and operations. The subjects of these investigations              following major categories:
may include contractors, program participants, GPO
management, and other employees. Special Agents in the            Ofﬁce of Workers’ Compensation Program
OI are Federal Criminal Investigators (Job Series 1811), and      (OWCP)
are also designated as Special Police Ofﬁcers pursuant to 44      The OI investigates GPO employees who have allegedly
U.S.C. § 317. The OI’s investigations may result in criminal      submitted false claims and made false statements to
prosecution, civil proceedings, or imposition of administrative   facilitate their receipt of workers’ compensation beneﬁts.
sanctions. Prosecutions may result in court-imposed prison        We currently have 14 open investigations involving alleged
terms, probation, ﬁnes, and/or restitution.                       OWCP fraud.

                                                                  Procurement Fraud
A. Summary of Investigative Activity                              The OI investigates allegations of statutory violations
                                                                  involving GPO contractor service providers defrauding the
During this reporting period, the OI opened 25 investigative      government in connection with GPO’s procurement of
cases in response to 220 new complaints or allegations,           printing goods and services. These violations include, but
and closed 17 matters. Forty-three investigative matters are      are not limited to, false claims, false statements, wire and
currently active. The OI remains active in liaison efforts        mail fraud, product substitution, and Small Disadvantaged
with GPO ofﬁces located in various regions throughout the         Business Program violations. The OI currently has nine
country. As a result, the OI continues to receive information     open procurement fraud cases.
or complaints regarding allegations of fraudulent activities
by GPO contractors.                                               Employee Misconduct
   The OI issued twelve administrative subpoenas during           The OI investigates allegations involving GPO employee
this reporting period. Two of these subpoenas were                misconduct. These allegations include, but are not limited
challenged by the subjects, but with assistance from the U.S.     to, misuse of government computers, theft, assaults, drug
Department of Justice, court orders enforcing the subpoenas       violations, gambling, kickbacks, and travel voucher fraud.
were obtained in each case.                                       The OI has 14 active misconduct investigations.

                                                                  Miscellaneous
                                                                  The OI investigates miscellaneous administrative allegations
                                                                  and other types of investigations that do not fall into
                                                                  one of the above three categories. The OI has six active
                                                                  miscellaneous matters currently open.




Office of the Inspector General/Semiannual Report to Congress                                                               17
C. Status of Action on Referrals                                 D. Investigative Accomplishments

The OI’s investigative efforts result in both external and       ■   An investigation into alleged procurement fraud by a
internal referrals for action. A summary of the status of            printing contractor, initiated during a previous reporting
outstanding referrals by the OI follows.                             period and continued into this reporting period, resulted
                                                                     in the recovery of $1,152 to the Agency. The Agency
External                                                             previously recovered additional funds from the company
A total of four investigative matters were referred to U. S.         as a result of the OI’s investigation. The investigation is
Department of Justice (DOJ) for prosecution during this              ongoing and is expected to yield additional recoveries.
period. Civil prosecutorial actions are currently pending on
two of these referrals:                                          ■   The OI’s efforts in the Ofﬁce of Workers’ Compensation
                                                                     Program Fraud investigations led to estimated cost
■    One current Ofﬁce of Workers’ Compensation Program              savings of approximately $500,000 to the Agency over
     (OWCP) investigation was accepted by DOJ for civil              the next ten years. The efforts of one case in particular
     action after being declined for criminal prosecution.           resulted in the removal of one employee from OWCP
■    One contract fraud matter was accepted by DOJ for civil         rolls, subsequent termination from Federal employment
     action after being declined for criminal prosecution in a       of that employee, and the suspension for 30 days of
     prior reporting period.                                         another employee. Other OWCP fraud investigations are
                                                                     ongoing.
Internal
A total of four investigative matters were referred to GPO       ■   Seven OI contract fraud investigations resulted in the
management for action during this reporting period. Six              issuance of 18 administrative actions against companies
investigative cases that were referred in previous reporting         and their ofﬁcials. These actions included the debarment
periods remain pending with Agency ofﬁcials for action.              of three contractor companies and/or ofﬁcials, nine
   OI investigative ﬁndings were also forwarded to the               Notices of Proposed Debarment, two Show Cause
appropriate Agency ofﬁcials for suspension, debarment, or            Notices, and four Letters of Warning.
other administrative actions against Agency contractors.
As a result of OI investigative efforts, during this reporting   ■   An OI investigation initiated during a prior reporting
period, the Agency debarred three contractor companies               period into the misuse of the Agency Metrocheck
and ofﬁcials, and issued nine Notices of Proposed                    program resulted in the recovery of $3,492.
Debarment, two Show Cause Notices, and four Letters of
Warning.
                                                                 E. Work-In-Progress

                                                                 Several signiﬁcant OI matters remain pending as of the end
                                                                 of this reporting period. The disposition and results of these
                                                                 investigations will be detailed in future reports.




18                                                                            Office of the Inspector General/Semiannual Report to Congress
 Statistical Table –
 Summary of Investigative Case Workload as of March 31, 2006
Workload Analysis                                                   Number of Cases
Beginning Case Workload as of October 1, 2005                            35
   New Allegations Received                                              220
       Cases Being Developed                                             11
       Cases Opened                                                      14
   Matters Closed After Preliminary Investigation                       <195>
   Cases Closed or Referred with No Further Action                      <17>
Ending Case Workload as of March 31, 2005                                43




 Statistical Table – Ofﬁce of Investigations Productivity Summary
Arrests                                                         0     Amounts Recovered Through
Total Cases Presented to USAO’s / SAO’s                         4     Investigative Efforts                     $4,644
 Criminal                                                       1     Total Agency Cost Savings Through
                                                                      Investigative Efforts                    ~$500,000
   Criminal Declinations                                        1
                                                                      Total Administrative Referrals               4
   Convictions                                                  0
                                                                      Contractor Debarments                        3
   Guilty Pleas                                                 0
                                                                      Contractor Suspensions                       0
   Probation (days)                                             0
                                                                      Contractor Other Actions                    15
   Restitutions                                                 0
                                                                      Employee Suspensions                         4
 Civil                                                          3
                                                                      Employee Terminations                        1
   Civil Declinations                                           1
                                                                      Employee Warned/Other Actions                2
                                                                      Other Law Enforcement Agency Referrals       0




Office of the Inspector General/Semiannual Report to Congress                                                            19
U.S. GOVERNMENT PRINTING OFFICE

Office of the Insp e c t o r G e n e r a l


732 North Capito l S t r e e t , N W
Washington, D.C . 2 0 4 0 1


202.512.0039
inspectorgeneral@ g p o . g o v
www.gpo.gov/oig


OIG HOTLINE 1 . 8 0 0 . 7 4 3 . 7 5 7 4
